SEMIANNUAL REPORT TO CONGRESS




 U.S. ELECTION ASSISTANCE COMMISSION
      OFFICE OF INSPECTOR GENERAL




For the Period:
October 1, 2013 Through
March 31, 2014

              U.S. ELECTION ASSISTANCE COMMISSION
                  OFFICE OF INSPECTOR GENERAL
                        1335 East West Highway - Suite 4300
                              Silver Spring, MD 20910




April 30, 2014


To: Acting Executive Director, U.S. Election Assistance Commission


      The Inspector General Act of 1978 (Public Law 95-452), as amended,
calls for the preparation of semiannual reports to the Congress summarizing
the activities of the Office of Inspector General (OIG) for the six-month periods
ending each March 31st and September 30th. I am pleased to enclose the
report for the period from October 1, 2013 to March 31, 2014.


      The Act requires that you transmit the report to the appropriate
committees of the Congress within 30 days of receipt, together with any
comments you may wish to make. Comments that you might offer should be
included in your management report that is required to be submitted along
with the Inspector General’s report.


      Working together, I believe we have taken positive steps to improve
Commission programs and operations.


                                            Sincerely,



                                            Curtis W. Crider
                                            Inspector General




                                       ii
Profile of Performance

          Audit, Evaluation and Investigation Reports Issued
       for the Period October 1, 2013 through March 31, 2014




                         20%                   Grant Audits
                                               (4)


                                               Audits and
                                               Evaluations of
                                     80%       EAC (1)




                           Profile of Performance
       for the Period October 1, 2013, through March 31, 2014


Results
Questioned Costs                                       $ 4,298,367
Potential Additional Program Funds                     $      608,475
Funds to be Put to Better Use                          $      113,345




                                     iii
Table of Contents
                                         Page




Election Assistance Commission Profile    1


Office of Inspector General Profile       2

EAC Audits                                3

State Audits                              3


Other Activities                          8

Peer Review Activity                      8


Appendices                               10




                             iv
Election Assistance Commission Profile

The U.S. Election Assistance Commission (EAC or Commission) is a bipartisan,
independent commission consisting of four members. The Help America Vote
Act of 2002 specifies that commissioners be nominated by the President on
recommendations from the majority and minority leadership in the U.S. House
and U.S. Senate. Once confirmed by the full Senate, commissioners may serve
two consecutive terms and no more than two commissioners may belong to the
same political party. There are four vacancies on the commission.


The EAC mission is to assist states with improving the administration of
elections for Federal office. The EAC accomplishes this mission by providing
funding, innovation, guidance and information to be used by the states to
purchase voting equipment, train election personnel, and implement new
election programs. The EAC has awarded over $3 billion in funding to the 50
states, the District of Columbia, Puerto Rico, the U.S. Virgin Islands, Guam and
American Samoa (hereinafter referred to as “states”). With those funds, the
states have purchased voting equipment, established statewide voter
registration lists, implemented provisional voting, educated voters, trained
officials and poll workers, improved polling places, and recruited poll workers.


HAVA made EAC responsible for the federally run testing and certification
program for voting systems. Through this program, the EAC develops
standards for voting equipment, accredits laboratories, and reviews and
certifies voting equipment based upon the tests performed by the accredited
laboratories.


The EAC is responsible for administering the National Voter Registration Act
(NVRA) by promulgating regulations for the content and use of the National
Mail Voter Registration form.




                                     1
Office of Inspector General Profile

HAVA required the appointment of an inspector general for the EAC and
amended the Inspector General Act (IG Act) of 1978 (5 U.S.C.A. App. 3) to
identify the EAC as a designated Federal entity (DFE).


The OIG has always been a very small office. Other agencies have provided
assistance by detailing employees; we have contracted independent CPA firms
to conduct audits, and, finally, hiring permanent staff. The OIG currently has
one employee the inspector general.


Despite our small size, we perform all of the duties required of the inspector
general under the IG Act, including:


   •   Conducting and supervising audits, investigations, and other services
       (e.g., evaluations) relating to the programs and operations of the EAC;


   •   Providing leadership and coordination and recommending actions to
       management, which (1) promote economy, efficiency, and effectiveness
       in agency programs and operations; and (2) prevent and detect fraud,
       waste, abuse, and mismanagement of government resources; and


   •   Keeping the Commission, management, and Congress fully informed
       regarding problems and deficiencies, and the progress of corrective
       actions.


When conducting an investigation, we work with other Federal agencies to
detail investigators or contract for investigative services.


The OIG’s program to ensure economy, efficiency and integrity in the use of
funds does not exclusively translate into audits of the EAC or of its grant
recipients. The OIG also investigates allegations of waste, fraud, abuse and
mismanagement in EAC programs and operations. The OIG operates a hotline
to receive complaints regarding EAC, its programs, and its funding recipients.

                                       2
EAC Audits

Fiscal Year 2013 Financial Audit


The Office of Inspector General (OIG) engaged Leon Snead & Co. P.C. (LSC), an
independent certified public accounting firm, to conduct an audit of the EAC’s
fiscal year 2013 financial statements. LSC was unable to express an opinion on
the EAC’s balance sheet as of September 30, 2013, and on the related
statements of net cost, changes in net position, and the statement of budgetary
resources for the year then ended. The disclaimer resulted because of
significant and pervasive uncertainties relating to the validity of approximately
$2.2 million in grant accruals, as well as, the validity of obligations totaling
approximately $900,000 relating to the 2008 requirements payment
appropriation and reported in the FY 2013 financial statements. The resolution
of the uncertainties could result in the agency needing to report an Anti-
Deficiency Act violation and an improper payment.


The EAC generally agreed with the report’s recommendations and indicated that
corrective will be taken to implement the recommendations. Four of the six
recommendations are considered resolved and implemented.


State Audits

HAVA funds have been distributed by the EAC to states for use to improve the
administration of Federal elections by purchasing new equipment, establishing
and operating statewide voter lists, implementing provisional voting, and
verifying the identity of persons who wish to register to vote. The OIG conducts
audits of the states’ use of HAVA funds. Through those audits, the OIG
examines:


   •   whether the recipient used HAVA funds in accordance with HAVA and
       other applicable Federal requirements;



                                      3
    •   whether the recipient has properly accounted for purchases made with
        HAVA funds and any income derived from those purchases;


    •   whether grant funding was maintained and accounted for in keeping with
        HAVA; and


    •   Whether the recipient provided sufficient matching funds and maintained
        Federal monies in a separate, interest-bearing election fund.


Virgin Islands: At the request of the U.S. Election Assistance Commission
(EAC) Office of Inspector General the Department of the Interior (DOI) Office
of Inspector General reviewed the Election System of the Virgin Islands’ (ESVI)
compliance with the Help America Vote Act of 2002 (HAVA).

In its audit, the DOI found that ESVI’s Office of the Supervisor of Elections
(Office) lax posture on internal controls put $3.3 million in HAVA funds and
other funding at risk of fraud, waste, or mismanagement. The audit found:


•       no supporting documentation or certification for payroll activities;


•       circumvention of procedures established to prevent the abuse of work
        time;


•       no written justification or comparison quotes for small purchases;
        inaccurate and late Federal Financial Reports, including financial reports
        due months ago that still have not been submitted;


•       no supporting documentation for funds spent and transferred between
        bank accounts;


•       poor accounting for fees collected, making program income vulnerable to
        fraud, waste, and mismanagement;


•       a petty cash account for the Office that is susceptible to misuse because
        it is managed by one person;

                                       4
•       no inventory records for Office property, leaving voting and office
        equipment unaccounted for;


•       noncompliance with HAVA-required expenditure levels for local elections
        for 4 fiscal years; and


•       noncompliance with administrative complaint procedures, resulting in
        voters’ grievances not being addressed.


As a result, DOI questioned the Office’s ability to properly account for any of
the HAVA funds it received. DOI specifically question approximately $1.1
million associated with payroll and procurement deficiencies, inaccurate and
late financial reporting, unsecured equipment, and unreported program
income.


DOI made 20 recommendations to assist the ESVI in resolving the issues
identified in the report. We consider 19 of the recommendations resolved but
not implemented, and 1 closed.


We contracted with the independent certified public accounting firm of
McBride, Lock & Associates (MLA) to audit the administration of payments
received under the Help America Vote Act (HAVA) by the Colorado Secretary of
State, the Secretary of the Commonwealth of Massachusetts and the North
Dakota Secretary of the State.


Colorado: In its audit, McBride, Lock & Associates concluded that the Colorado
Secretary of State (SOS) generally accounted for and expended the HAVA funds
in accordance with applicable requirements for the period from April 28, 2003
through September 30, 2012. However, the following exceptions were
identified:


    •   The SOS lacked sufficiently comprehensive written guidelines for the
        preparation, documentation and timely submission of Federal reports,
        and related policies for their review and approval, which resulted in one

                                      5
       report that could not be entirely supported by or agreed to the
       accounting records.


   •   The SOS’ equipment management was not in compliance with 41 CFR
       105-71.132 with respect to property records and the performance of
       biennial physical inventories.


   •   The SOS expended HAVA funds for purposes that are not allowable under
       the award’s terms and conditions or HAVA regulations, utilizing
       processes that were not consistent with the Federal and State laws and
       regulations.


In responses to the draft report, the SOS agreed with the finding related to
federal reports but did not agree with the findings related to equipment
management or the finding related to the improper use of HAVA funds or the
resulting $362,691 in questioned costs. The EAC indicated that it would work
with the SOS to ensure corrective action. MLA made 13 recommendations to
address the issues identified in the report. We consider the 13
recommendations resolved but not implemented.


Massachusetts: In its audit, McBride, Lock & Associates concluded that the
Secretary of the Commonwealth of Massachusetts (Office) generally accounted
for and expended the HAVA funds in accordance with applicable requirements
for the period from May 2003 through September 30, 2012. However, the
following exceptions were identified:


   •   The Office submitted financial reports that could not be supported by
       underlying accounting records.


   •   The Office did not timely credit interest earnings to the Elections Fund.


   •   The Office property records were not adequate per 41 CFR 105-71.132.


   •   The Office did not deposit into the election fund the required state match
       for all Section 251 requirements payments.

                                        6
   •   The Office expended HAVA funds for purposes that are not allowable
       under the award’s terms and conditions or HAVA regulations.


In its August 29, 2013 response to the draft report, the Office provided
comments to the findings and corrective actions, as applicable, to address the
recommendations. The Office did not agree with the finding relating to the
questioned costs of $195,873 for the creation and distribution of Public Service
Announcements and for the printing of mail-in voter registration cards. MLA
made nine recommendations to address the issues identified in the report. We
consider the nine recommendations closed.


North Dakota: In its audit, McBride, Lock & Associates concluded that the North
Dakota Secretary of State (Office) generally accounted for and expended the
HAVA funds in accordance with applicable requirements for the period from
April 2003 through September 30, 2012. However, the following exceptions
were identified:


   •   The Office submitted financial reports that could not be supported by
       underlying accounting records.


   •   The Office property records were not adequate per 41 CFR 105-71.132.


   •   The Office did not have documented policies and procedures.


   •   The Office did not timely deposit into the election fund the required state
       match for all Section 251 requirements payments.


   •   The Office expended HAVA funds without adequate approval of certain
       invoices.


MLA made seven recommendations to assist the Office in resolving the issues
identified in the report. We consider the seven recommendations closed.




                                     7
Other Activities

Reviews of Legislation, Rules, Regulations and Other Issuances


The OIG conducts regular monitoring of EAC program activities and policy-
making efforts. We provide comment to significant policy statements,
rulemaking and legislation that affects the EAC. During this reporting period,
the EAC did not have any Commissioners and did not issue any policy
determinations. The Administration issued several pieces of guidance and
Executive Orders during the reporting period, which we reviewed. Last, we
participated in surveys and data calls issued by the Council of Inspectors
General on Integrity and Efficiency.


Matters Referred to Prosecuting Authorities


We are reporting no activities in this category during the reporting period.


Denial of Access to Records


We are reporting no activities in this category during the reporting period.


Peer Review Activity

Section 989C of the Dodd-Frank Act contains additional semiannual reporting
requirements pertaining to peer review reports. Federal Inspectors General are
required to engage in peer review processes related to both their audit and
investigative operations. In keeping with Section 989C, the EAC OIG is reporting
the following information related to its audit peer review activities. These
activities cover our role as both the reviewed and the reviewing OIG.


Audit Peer Reviews


On a 3-year cycle, peer reviews are conducted of an OIG’s audit organization’s
system of quality control in accordance with the CIGIE Guide for Conducting

                                       8
External Peer Reviews of the Audit Organizations of Federal Offices of Inspector
General, based on requirements in the Government Auditing Standards.

During this semiannual reporting period, no peer reviews were conducted by
another OIG organization on the EAC OIG and EAC OIG did not conduct a peer
review on other OIGs. Listed below is information concerning peer review
activities during prior reporting periods


Peer Review of EAC OIG Audit: In a prior reporting period, the EAC OIG was
subject to a peer review. The Federal Labor Relations Authority, Office of
Inspector General (FLRA OIG) conducted the review and issued its system report
on July 31, 2012. In the FLRA OIG’s opinion, the system of quality control for
the EAC OIG audit organization in effect for the year-ended March 31, 2012,
had been suitably designed and complied with to provide EAC OIG with
reasonable assurance of performing and reporting in conformity with applicable
professional standards in all material respects. The EAC OIG received a peer
review rating of pass




                                     9
                                                   Appendix A
  Reports Issued

                        U.S. Election Assistance

EAC Audits              Commission’s Financial Statements
                        for Fiscal Years 2013 and 2012,
                        (Assignment No. I-PA-EAC-01-13),
                        December 2013


                        Administration of Payments

State Audits            Received Under the Help America
                        Vote Act by the Colorado Secretary
                        of State, (Assignment No. E-HP-
                        CO-05-12), January 2014


                        Administration of Payments
                        Received Under the Help America
                        Vote Act by the Massachusetts
                        Secretary of the Commonwealth
                        (Assignment No. E-HP-MA-06-12),
                        November 2013


                        Administration of Payments
                        Received Under the Help America
                        Vote Act by the North Dakota
                        Secretary of State, (Assignment No.
                        E-HP-ND-08-12), November 2013


                        Election System of the Virgin
                        Islands' Compliance with the Help
                        America Vote Act of 2002,
                        (Assignment No. E-HP-VI-01-13),
                        October 2013



                   10
                                                           APPENDIX B
   Monetary Impact of Audit Activities


   Questioned Costs*                                   $ 4,298,367
   Potential Additional Program Funds                  $    608,475
   Funds to Be Put to Better Use                       $    113,345
   Total                                               $ 5,020,187
*Unsupported costs are included in questioned costs.




                                         11
                                                          APPENDIX C
Reports With Questioned Costs

                                          Questioned     Unsupported
          Category               Number       Costs         Costs

A. For which no management
decision had been made by
the beginning of the reporting
period.                            3      $    229,185       $0

B. Which were issued during
the reporting period.              3      $ 4,298,367        $0

Subtotals (A + B)                  6      $ 4,527,552        $0

C. For which a management
decision was made during the
reporting period.                  4      $ 3,375,881        $0

 (i) Dollar value of
recommendations that were
agreed to by management.                  $ 2,745,756        $0

 (ii) Dollar value of
recommendations not agreed
to by management.                         $    630,125       $0

D. For which no management
decision has been made by
the end of the reporting
period.                            2      $ 1,151,671        $0




                                    12
                                                   APPENDIX D
Reports With Potential Additional Program Funds

            Category                   Number   Dollar Value

A. For which no management
decision had been made by the
beginning of the reporting
period.                                  0          $0
B. Which were issued during the
reporting period.                        1      $ 608,475

Subtotals (A+B)
                                         1      $ 608,475

C. For which a management
decision was made during the
reporting period.                        1      $ 608,475

 (i) Dollar value of
recommendations that were
agreed to by management.                        $ 608,475

 (ii) Dollar value of
recommendations that were not
agreed to by management.                            $0

D. For which no management
decision has been made by the
end of the reporting period.             0          $0
                                                                $   0




                                  13
                                                         Appendix E
Reports With Funds Be Put To Better Use

            Category            Number    Dollar Value
A. For which no                   0             0
management decision had
been made by the beginning
of the reporting period.


B. Which were issued during           1    $ 113,345
the reporting period.


Subtotals (A+B)                       1    $113,345


C. For which a management             0       $0
decision was made during the
reporting period.


 (i) Dollar value of                          $0
recommendations that were
agreed to by management.


 (ii) Dollar value of                         $0
recommendations that were
not agreed to by management.


D. For which no management
decision has been made by the         1    $ 113,345
end of the reporting period.


E. Reports for which no               0        0
management decision was
made within six months of
issuance.




                                 14
                                                                       APPENDIX F
Summary of Reports More Than Six Months Old Pending
Corrective Action at March 31, 2014

The following is a list of audit and evaluation reports that are more than six
months with management decisions for which corrective action has not been
completed. It provides report number, title, issue date, and the number of
recommendations without final corrective action.

I-EV-EAC-01-07B             Assessment of the U.S. Election Assistance
                            Commission’s Program and Financial Operations,
                            February 2008, 4 Recommendations


E-HP-NE-07-12               Administration of Payments Received Under the Help
                            America Vote Act by the Nebraska Secretary of State,
                            September 2013, 9 Recommendations




                                         15
                                                                   APPENDIX G
Summary of Reports More Than Six Months Old Pending
Management Decision at March 31, 2014

This listing includes a summary of audit and evaluation reports that were more
than 6 months old on March 31, 2014 and still pending a management decision.
It provides report number, title, and number of unresolved recommendations.


None.




                                       16
                                                                                  APPENDIX H
Reporting Requirements of the IG Act

 Section of Act                               Requirement                               Page

Section 4(a)(2)       Review of Legislation and Regulations                               8

Section 5(a)(1)       Significant Problems, Abuses, and Deficiencies                    None

Section 5(a)(2)       Recommendations for Corrective Action With Respect to             None
                      Significant Problems, Abuses, and Deficiencies

Section 5(a)(3)       Significant Recommendations From Agency’s Previous Report on       15
                      Which Corrective Action Has Not Been Completed

Section 5(a)(4)       Matters Referred to Prosecuting Authorities and Resulting         None
                      Convictions

Section 5(a)(5)       Matters Reported to the Head of the Agency                        None

Section 5(a)(6)       List of Reports Issued During the Reporting Period                 10

Section 5(a)(7)       Summary of Significant Reports                                      3

Section 5(a)(8)       Statistical Table – Questioned Costs                               12

Section 5(a)(9)       Statistical Table – Recommendations That Funds Be Put to Better    14
                      Use

Section 5(a)(10)      Summary of Audit Reports Issued Before the Commencement of        None
                      the Reporting Period for Which No Management Decision Has
                      Been Made

Section 5(a)(11)      Significant Revised Management Decisions Made During the          None
                      Reporting Period

Section 5(a)(12)      Significant Management Decisions With Which the Inspector         None
                      General Is in Disagreement

Section 5(a)(13)      Information Described Under Section 804(b) of the Federal         None
                      Financial Management Improvement Act of 1996

Section 5(a)(14)(A)   Peer Review Reports Conducted on U.S. Election Assistance         None
                      Commission Office of Inspector General during the Reporting
                      Period
 Section of Act                                Requirement                            Page
Section 5(a)(14)(B)   Statement of Peer Review Conducted on the U.S. Election           8
                      Assistance Commission Office of Inspector General during a
                      Prior Reporting Period

Section 5(a)(15)      Outstanding Recommendations from a Peer Review Report on        None
                      the U.S. Election Assistance Commission Office of Inspector
                      General

Section 5(a)(16)      Peer Review Reports Conducted by the U.S. Election Assistance   None
                      Commission Office of Inspector General
                           Help to ensure efficient, effective, and transparent EAC operations and
OIG’s Mission
                           programs




                           Copies of OIG reports are available on the OIG website,
                           www.eac.gov/inspector_general/

                           Copies of OIG reports can be requested by e-mail: (eacoig@eac.gov).

                           Mail orders should be sent to:
Obtaining Copies
of OIG Reports
                                U.S. Election Assistance Commission
                                Office of Inspector General
                                1335 East West Highway - Suite 4300
                                Silver Spring, MD 20910


                           To order by phone: Voice:      (301) 734-3104
                                                 Fax: (301) 734-3115



                           By Mail:   U.S. Election Assistance Commission
                                      Office of Inspector General
To Report Fraud, Waste
                                      1335 East West Highway - Suite 4300
and Abuse Involving the               Silver Spring, MD 20910
U.S. Election Assistance
Commission or Help         E-mail:    eacoig@eac.gov

America Vote Act Funds
                           OIG Hotline: 866-552-0004 (toll free)

                           On-Line Complaint Form: www.eac.gov/inspector_general/
                           FAX: (301) 734-3115
               Inspector General
              U.S. Election Assistance Commission




This report, as well as other OIG reports and testimony, are available on the internet at:
www.eac.gov/inspector_general/
